<html>
<title> - [H.A.S.C. No. 114-140] SEAPOWER AND PROJECTION FORCES IN THE SOUTH CHINA SEA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-140]

                     SEAPOWER AND PROJECTION FORCES

                         IN THE SOUTH CHINA SEA

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 21, 2016




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

                                     
                                    ______
  
                           U.S. GOVERNMENT PUBLISHING OFFICE 
  
 22-458                         WASHINGTON : 2018 
 -----------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government Publishing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                            Washington, DC 20402-0001





























             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Dave Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     9
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Erickson, Dr. Andrew S., Ph.D., Professor of Strategy, China 
  Maritime Studies Institute, U.S. Naval War College.............     7
Glaser, Bonnie S., Senior Adviser for Asia and Director, China 
  Power Project, Center for Strategic and International Studies..     2
Kraska, Dr. James, S.J.D., Professor of International Law, Oceans 
  Law and Policy, Stockton Center for the Study of International 
  Law, U.S. Naval War College....................................     4

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe...........................................    33
    Erickson, Dr. Andrew S.......................................    74
    Forbes, Hon. J. Randy........................................    31
    Glaser, Bonnie S.............................................    35
    Kraska, Dr. James............................................    46

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    93
















         SEAPOWER AND PROJECTION FORCES IN THE SOUTH CHINA SEA

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                     Washington, DC, Wednesday, September 21, 2016.
    The subcommittee met, pursuant to call, at 3:55 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Today this subcommittee convenes to receive 
testimony on seapower and projection forces in the South China 
Sea. Providing testimony today are Ms. Bonnie S. Glaser, Senior 
Adviser for Asia and Director, China Power Project, Center for 
Strategic and International Studies [CSIS]. Thank you so much 
for being with us. Also, Dr. James Kraska, Professor of Oceans 
Law and Policy, U.S. Naval War College. Thank you for joining 
us, James. And also, Dr. Andrew S. Erickson, Professor of 
Strategy, China Maritime Studies Institute at the U.S. Naval 
War College. And, Andrew, we thank you for being here as well.
    Our topic today is the South China Sea and the role that 
America's seapower and projection forces can play in 
maintaining peace, prosperity, and the rule of international 
law in that critical body of water. Like Berlin in the Cold 
War, the South China Sea has become a symbol and a flashpoint 
of the increasingly competitive relationship between two great 
powers, a place of both inherent and symbolic importance.
    Over the last few years, it has become the place that the 
world is watching to see how the balance of power in Asia is 
changing and to measure America's willingness and ability to 
deter coercion and aggression in that important region. While I 
approve of very few of this administration's foreign policies, 
I do believe that their early instinct to devote more resources 
and attention to the Indo-Asia-Pacific region was correct. That 
said, more than rhetoric is required to counterbalance China's 
growing military power and assertiveness. Last year, myself, 
Chairman Thornberry, and 27 other members of this chamber 
signed a letter to the President and the Secretary of Defense, 
calling upon them to take a stronger stance in the South China 
Sea, to increase U.S. military presence in this critical 
region, and ramp up our freedom of navigation [FON] operations 
in disputed waters. I have been pleased to see that some of 
that has occurred, especially in the sensitive period around 
the U.N. Law of the Sea ruling.
    At the same time, however, I think it is clear that more is 
needed to defend our allies and our interests in the region. 
Despite the ruling, Beijing is still laying claim to almost all 
of the entire sea. Work on China's artificial features 
continues apace, with much of it clearly military in nature. 
China's military and paramilitary forces continue to wage a 
campaign of gray-zone aggression and increase their presence 
and activity in the region. All in all, the trends seem to be 
toward China's de facto control of this vital body of water.
    With the end of the Obama administration approaching, I 
believe we are entering a time of both vulnerability and 
opportunity. I am concerned that China's president and the 
Chinese Government may see President Obama's last few months as 
a window of opportunity for establishing an air defense 
identification zone [ADIZ], expanding reclamation activities to 
Scarborough Shoal, accelerating the militarization of the 
artificial features or some move that will test our resolve. I 
think it is critically important that we deter such activities 
in the months ahead.
    At the same time, I also see an opportunity for a new 
administration to take a new and stronger stance on the South 
China Sea, and redouble our efforts to maintain peace and 
stability in the Asia-Pacific region. I have my own thoughts on 
what we must do as a nation, but I look forward to hearing from 
our witnesses how we can better deter Chinese aggression, 
reassure our allies and partners, and maintain a stable 
military balance in the Asia-Pacific region going forward.
    When Mr. Courtney gets here, if he has any opening remarks, 
we will defer to him at that particular point in time. But now 
we would like to hear from our witnesses. As Mr. Courtney and I 
mentioned to you at the outset, your written testimony will be 
made part of the record. We look forward to any comments that 
you might have, and we would love to get your thoughts at some 
point throughout this hearing on just why it is important that 
we even look at the South China Sea for individuals living in 
States across our country who may say, why are we even 
concerned about it? And the second thing, we always know that 
there are risks if we have the wrong actions, but what risks 
are there if we have no actions as we see in many situations in 
the South China Sea, if you could elaborate on those.
    With that, Ms. Glaser, we would love to have you start us 
off and love to hear any comments that you might have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 31.]

  STATEMENT OF BONNIE S. GLASER, SENIOR ADVISER FOR ASIA AND 
    DIRECTOR, CHINA POWER PROJECT, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Ms. Glaser. Thank you, Chairman Forbes, Ranking Member 
Courtney, members of the House Subcommittee on Seapower and 
Projection Forces. I appreciate the opportunity to testify 
before you today.
    The United States has a great deal at stake in the South 
China Sea. We have a national interest in freedom of 
navigation, particularly open access to Asia's maritime 
commons. We have an abiding interest in the compliance with 
international law, including the July 12 UNCLOS [United Nations 
Convention on the Law of the Sea] tribunal ruling. We certainly 
have an interest in the peaceful resolution of disputes and the 
lack of coercion by big powers against smaller powers. And, of 
course, we have a very important interest in ensuring the 
security of our allies and our partners. All of these interests 
that I have enumerated I see as under challenge today from 
China. Chinese statements and actions in the South China Sea 
suggest that China seeks to, over time, gain control over the 
waters and the airspace in the South China Sea. After the 
tribunal issued its ruling, the Chinese Government issued what 
is a very highly authoritative and unusual statement that cited 
a series of claims, including to historic rights in all of the 
waters, but also to internal waters. And a few days after that, 
the commander of the PLA [People's Liberation Army] Navy, 
Admiral Wu Shengli, told CNO [Chief of Naval Operations] 
Admiral John Richardson that the South China Sea is a Chinese 
core interest. That indicates that Beijing will resist making 
concessions, and it is a warning to the United States to tread 
carefully. That is the first time that that statement has been 
made very openly and clearly and reported in the Chinese media.
    Acquiring greater control over the South China Sea may well 
be a key step in a long-term Chinese strategy to constrain, or 
even block, the U.S. Navy's access to the region and to 
maneuverability within the waters of the first island chain. If 
this is Chinese objectives, and we don't know for sure because 
Beijing has not made its goals clear, this is very worrisome.
    So I agree with you, Congressman Forbes, that there is a 
potential of China taking advantage of the final months of the 
Obama administration, or maybe even the transition, the 
upcoming election, and the first few months of a new President. 
The Chinese are known to test the resolve of American 
Presidents in the early months. We have already seen some 
potential evidence that the Chinese may dredge on Scarborough 
Shoal. A military outpost on that feature would enable China to 
deploy radar, aircraft, cruise missiles within range not only 
of Manila, but also of several Philippine bases to which the 
United States has recently gained access under EDCA [Enhanced 
Defense Cooperation Agreement].
    Up until now, we have seen a dynamic where China has been 
careful to avoid directly challenging the United States in the 
South China Sea. It has rather used, you know, incremental 
actions, what could be referred to as a salami slicing, which 
had not provoked a U.S. military response. I think it is 
uncertain whether China will continue this strategy going 
forward. Xi Jinping could decide to proceed with construction 
at Scarborough Shoal to bolster his domestic political position 
in advance of the 19th Chinese Communist Party National 
People's Congress, which will be held in November 2017.
    So I believe and share your views, Congressman, that the 
Obama administration's rebalance to Asia has been important. It 
has achieved some success. There is, of course, much more that 
we can do. Steps to bolster U.S. diplomatic engagement and 
military presence have been welcomed throughout the region, but 
wherever I go in Asia, I hear in every capital, not only our 
allies, but our partners, that American will and ability to 
sustain its commitment going forward is questioned. The region 
is highly uncertain about what the United States is going to 
do, in part because of the uncertainty of who will be 
President, but also because they worry that we may be 
distracted by crises elsewhere.
    So I have enumerated in my testimony a number of things 
that I think the U.S. should do going forward. I will just 
enumerate a couple here, and we can discuss them in greater 
detail if you wish. The U.S. should continue to publicly and 
privately call on Beijing to comply with this tribunal award 
and encourage countries to do the same. We should continue to 
warn Xi Jinping that land reclamation on Scarborough Shoal, 
declaration of an air defense identification zone in the South 
China Sea, or other destabilizing behavior, will be viewed with 
grave concern and result in a very strong U.S. response.
    We should resume our freedom of navigation operations in 
the South China Sea. We should conduct them regularly. Such 
missions should be carried out, I think in the future, quietly 
and without fanfare.
    The Maritime Security Initiative is very, very important. 
We need to provide more funding. I would advocate that the full 
request of $60 million for the Maritime Security Initiative be 
granted and that the members here support the Senate's State 
Foreign Operations Appropriations Bill, which has called for 
increasing the appropriation for the Department of State's FMF 
[Foreign Military Financing Account] and IMET [International 
Military Education and Training Account] for Asia.
    I support ratification of UNCLOS. I think that it is no 
longer sufficient that the United States adheres to UNCLOS as 
customary law. If the principles and practices that are 
embodied in the Convention on Law of the Sea are critical to 
American interests, then the U.S. should ratify the treaty. So 
I will stop there and look forward to your questions. Thank 
you.
    [The prepared statement of Ms. Glaser can be found in the 
Appendix on page 35.]
    Mr. Forbes. Thank you so much. Dr. Kraska.

      STATEMENT OF DR. JAMES KRASKA, S.J.D., PROFESSOR OF 
 INTERNATIONAL LAW, OCEANS LAW AND POLICY, STOCKTON CENTER FOR 
     THE STUDY OF INTERNATIONAL LAW, U.S. NAVAL WAR COLLEGE

    Dr. Kraska. Thank you very much, Chairman Forbes and 
Ranking Member Courtney, and members, for the opportunity, the 
invitation, to speak about the rule of law in the oceans, which 
I believe are the normative basis for seapower and projection 
forces globally. In the South China Sea, we face strategic 
risk, a military threat, and political challenge, and there is 
a legal dimension to all of these issues, which is a continuous 
struggle to shape and form the rules and the regimes, the laws 
and the norms, in the global commons. So I would encourage 
people to view the problems, the issues in the South China Sea, 
as a Chinese dimension of a global issue, which is that the 
rules for navigation and overflight are essential for the 
primacy of American power, and it is really the key enabler for 
U.S. grand strategy. This is why I believe that the issues in 
the South China Sea matter for the United States, and should 
matter for people in the U.S. everywhere.
    It is because the United States is connected to its friends 
and allies and partners throughout the world through the oceans 
and the airspace, and so the rules that apply to the maritime 
zones are critical for the U.S. position in the world. In fact, 
it has always been this way. The first war that the United 
States fought as an independent country was the Quasi-War with 
France in 1798 to 1800. It was over the issue of freedom of 
navigation and unimpeded access to the global commons. The 
second war that the United States fought was the First Barbary 
War. It was also over freedom of navigation. The third war that 
the United States fought as an independent country was the War 
of 1812 over, again, freedom of navigation and the impressment 
of American sailors from U.S. ships. The fourth war that we 
fought was the Second Barbary War when we put a stop to the 
odious practice of slave trafficking off the North African 
Coast.
    And it goes on and on. Of course, in World War I and World 
War II, these wars were principally about whether a hegemonic 
power would emerge in Europe or in Asia, and the maritime space 
was the lifeline for the United States to be able to maintain 
connectivity and prevent the emergence of a hegemonic power.
    So I view the South China Sea today as the fulcrum, not 
just of power in East Asia, but really a fulcrum of freedom of 
navigation throughout the globe. So there is no national 
security issue in my view that is more important.
    I have provided written testimony that contains a number of 
recommendations on strengthening the U.S. resolve in freedom of 
navigation and overflight throughout the global commons, and, 
in particular, in the South China Sea, and what I describe are 
four lines of efforts. The first is that there is already a 
governing U.S. policy on freedom of navigation in the oceans. 
It is a 1983 Ocean Policy Statement by President Reagan, which 
was made on March 10 of that year, which says that the United 
States does accept all of the navigational principles that are 
included in the U.N. Convention on the Law of the Sea, and that 
we will recognize that all countries have those rights. But 
there is a part of that that has been forgotten, which is that 
the Reagan statement says we will recognize other countries' 
rights so long as they respect American rights and American 
freedoms that are reflected in that convention.
    My view is that the United States should be more true to 
that policy and when appropriate, implement countermeasures, 
lawful countermeasures, against countries such as China to 
induce compliance with international law, meaning that I would 
recommend not recognizing Chinese rights to operate in the 
American territorial sea or in the U.S. exclusive economic zone 
with military warships and aircraft if China tries to deny that 
right to the United States. The U.S. should inform Chinese 
warships and military aircraft that they are no longer entitled 
to conduct innocent passage in the U.S. territorial sea, as 
they did through the Aleutian Islands last year, or conduct 
military activities in the United States exclusive economic 
zone, as they now routinely do off the coasts of Hawaii and 
Guam, and inform them that this is not a reciprocal or a tit-
for-tat, but, rather, that this is a lawful countermeasure in 
international law.
    I would also bolster the FON program, and a couple of the 
things that I would recommend is to conduct combined FON 
operations with other countries, such as Japan, because freedom 
of navigation is not just a American issue; it is a global, it 
is a multilateral issue, and all countries that are peace-
loving and trade freely have an interest in freedom of 
navigation in the global commons.
    I would also prioritize for the FON program the many, many 
illegal claims that have never been challenged, to my 
knowledge, such as the straight baselines that cut off the 
Hainan Straits, which China purports to view as internal 
waters, and that challenge has never been conducted, as far as 
I know, or at least most likely since the Vietnam war.
    The third thing is I would leverage the arbitration award, 
the July 12 arbitration under the U.N. Convention on the Law of 
the Sea, and in particular, that 500-page award delineates a 
number of illegal actions by China that ought to be considered 
by multilateral organizations that are in charge of those issue 
areas. For example, there are numerous violations by China of 
the Collision Regulations [COLREGS], which is under the 
auspices of the International Maritime Organization. There is 
also violations by China of the International Civil Aviation 
Organization rules that flow from the 1944 Chicago Convention 
on Civil Aviation.
    Similarly, there is misuse of fishing vessels as a maritime 
militia, which ought to be discussed before the Food and 
Agricultural Organization of the United Nations. So there are 
multilateral efforts that we have not taken advantage of that 
we could.
    And the fourth thing, I would join my colleague, Bonnie 
Glaser, and say that I believe that the United States should 
join the U.N. Convention on the Law of the Sea because 
ultimately, of course, the United States relies on its Armed 
Forces, including its naval forces especially, to ensure that 
it has freedom of navigation in the global commons. But I 
believe that we operate stronger under the color of law, and 
with greater legal and moral authority and clarity if we were 
to join the Convention. In particular, although I understand 
and accept that the Convention reflects customary international 
law and is binding on all states, nonetheless, it resonates 
with our friends and allies and partners around the world. That 
is, they very much are interested in us doing so, and in my 
view, as a champion of the rule of law, in international law, 
this affords the United States a unique locus of power, which 
we have not yet leveraged.
    I don't expect that China will suddenly begin to comply 
with the Law of the Sea Convention if the United States becomes 
a party to it, and I would view that as not the end of the 
process, but, rather, just a continuation of the struggle to 
shape the law in the oceans, and in particular, in the South 
China Sea. Thank you.
    [The prepared statement of Dr. Kraska can be found in the 
Appendix on page 46.]
    Mr. Forbes. Thank you. Dr. Erickson.

   STATEMENT OF DR. ANDREW S. ERICKSON, PH.D., PROFESSOR OF 
  STRATEGY, CHINA MARITIME STUDIES INSTITUTE, U.S. NAVAL WAR 
                            COLLEGE

    Dr. Erickson. Chairman Forbes, Ranking Member Courtney, 
members. In the South China Sea, Beijing is employing not one, 
but three major sea forces, fleets of navy gray hulls, coast 
guard white hulls, and maritime militia blue hulls. Today, I 
want to tell you why so much is at risk if more isn't done to 
address China's maritime militia, China's third sea force. So 
much is knowable about this third sea force through open 
sources alone. I have got a stack of my publications on the 
subject here of my colleague Conor Kennedy, at the Naval War 
College. So much is sayable if only U.S. Government officials 
would do so. And so much is preventable, but only if U.S. 
officials act soon.
    These forces operate together, with blue hulls forward and 
white and gray hulls backstopping them. These are gray-zone 
operations conducted to alter the status quo in China's favor 
regarding disputed claims, employing coercion as necessary, but 
ideally without escalating to war.
    Nevertheless, leading elements of China's third sea force 
have already played frontline roles in manifold Chinese 
incidents and skirmishes with foreign maritime forces 
throughout the South China Sea. These include China's 1974 
seizure of the Western Paracels from Vietnam; its 2009 
harassment of U.S. Navy surveillance ship USNS Impeccable; its 
2011 sabotage of two Vietnamese hydrographic vessels; its 2012 
seizure of Scarborough Shoal from the Philippines; and its 2014 
repulsion of Vietnamese vessels from disputed waters 
surrounding its oil rig, including by ramming and sinking them.
    In recent years, China has used its maritime militia 
against military and civilian ships and crews of its immediate 
neighbors, as well as the U.S., with no direct public response 
from any of them. So there is an important reason for their 
current lack of light and attention on China's third sea force. 
Despite a deluge of Chinese language evidence of its 
development and activities, no U.S. Government report, to my 
knowledge, or Washington-based executive branch official, has 
publicly mentioned China's maritime militia at all. As a 
result, I would submit to you, U.S. policy is underinformed. 
U.S. regional allies and partners are confused, and Beijing is 
emboldened. But make no mistake. These are state-organized, -
developed, and -controlled forces operating under a direct 
military chain of command.
    Now, China is generating a worrying new wave of the future 
in leading-edge maritime militia development. Headquartered on 
Woody Island in the Paracels, the Sansha militia was 
established to be a professional paramilitary force, first and 
foremost, with fishing a secondary mission at best. Several 
dozen large new Sansha maritime militia vessels boast 
reinforced hulls, external rails to mitigate collision damage 
to the ships themselves, and water cannons, features not common 
to normal fishing trawlers, but highly useful for ramming and 
for spraying.
    Now, as Beijing seeks to punish the Philippines for 
petitioning the arbitral tribunal that Professor Kraska has 
mentioned, dissuade Vietnam and others from following suit, and 
demonstrating its longstanding opposition to U.S. freedom of 
navigation efforts, China's third sea force likely appears a 
tempting tool.
    The next President, or even the current President, but 
especially the next President, given past patterns, may well 
face a fast-breaking maritime militia-related challenge, just 
as he or she is getting started in office. This is because, as 
Bonnie Glaser pointed out, Chinese leaders have a history of 
testing their American counterparts shortly after they assume 
office. And we see some worrying signs here. On 27 October of 
last year, when USS Lassen sailed near artificially augmented 
Subi Reef, small commercial craft with the hallmarks of 
maritime militia vessels approached it provocatively, having 
apparently anticipated its presence. Who knows what 
contingencies they might have been practicing for or what 
footage they might have been capturing for later misuse.
    So before China is able to put the United States or one of 
our regional allies or partners in a misleading but precarious 
position of appearing to confront innocent civilian fishermen, 
American officials must finally publicly reveal the third sea 
force's true nature and deeds. China's maritime militia can 
only be as deceptive and plausibly deniable as we allow it to 
be through our own silence and our own inaction.
    So here is what I think American policy makers need to do 
now. First of all, emphasize three principles. One, China's 
maritime militia is a military force, often in disguise. Number 
two, China's maritime militia forces don't deserve civilian 
protections in the unfortunate event of conflict. And number 
three, uncovering the truth about China's maritime militia is 
the best way to deter it and to deter its use in the first 
place.
    I also think we need to engage in three actions. One, call 
out China's maritime militia officially in public. Failure of 
the Pentagon's 2016 report to mention China's maritime militia 
at all was a major missed opportunity. Congress should mandate 
detailed coverage in next year's report. And meanwhile, 
Congress should publicly address this critical subject and ask 
senior administration officials to do so as well. Two, share 
information with countries at risk. Provide American leadership 
and strategic reassurance. And as part of this, to bring all 
this action together, I believe that the next U.S. President 
needs to issue a public, whole-of-government Asia-Pacific 
strategy to coordinate policy, reassure allies and friends, and 
deter destabilizing behavior. Three, communicate clearly with 
Chinese interlocutors. Make it plain that any elements that 
ignore repeated warnings by U.S. vessels to desist from 
disruptive activities will be treated as military controlled, 
and dealt with accordingly. To ensure self-defense and 
unobstructed mission accomplishment, we need to impose clear 
consequences for any use of maritime militia against U.S. 
vessels.
    In sum, the U.S. faces growing challenges in the South 
China Sea. In many ways, China's maritime militia is one of the 
simplest to begin to address. Its plausible deniability is one 
of its greatest strengths, and yet it has many vulnerabilities. 
We can quickly unmask it by putting a clear U.S. Government 
stamp of authority on already available information. It is high 
time that we did so before things take a turn for the worse in 
a time and a way that is not of our choosing.
    Thank you very much, and I am happy to address any 
questions that you might have.
    [The prepared statement of Dr. Erickson can be found in the 
Appendix on page 74.]
    Mr. Forbes. Thank you, Dr. Erickson. The Chair now 
recognizes the ranking member, Mr. Courtney, for any opening 
remarks he may have.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, and I apologize for 
not being here at the outset. Actually, I have written remarks 
which to keep the hearing moving along, I am just going to ask 
that they be admitted to the record.
    Mr. Forbes. Without objection, all the written remarks for 
all of the members will be made a part of the record.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 33.]
    Mr. Courtney. And, again, also to supplement those, some of 
us may recall--probably most of us don't--but when we did the 
markup last May, or at the end of April, one of the report 
requests that HASC [House Armed Services Committee] included in 
the markup was, in fact, a report from the Department of 
Defense regarding U.S. accession to the Law of the Sea 
Convention. And the request had a deadline of September 15, and 
believe it or not, they actually submitted the report on time. 
And so Navy Commander Jason Levy, of the Oceans Policy Adviser, 
Office of the Secretary of Defense, submitted his report. It is 
a 6-page report. Very powerful argument. Again, totally in sync 
with the three witnesses that the advantages far outweigh the 
status quo in terms of the U.S., again, becoming a full 
signatory. And, again, I would ask that it be made part of the 
record.
    Mr. Forbes. Without objection, it will be made part of the 
records.
    [The information referred to was not available at the time 
of printing.]
    Mr. Courtney. I would yield back to questions.
    Mr. Forbes. Well, once again, thank you all for your 
comments and your thoughts. Dr. Kraska, I would like to ask 
you, U.S. naval policy to date has been the infrequent 
application of innocent passage to seek and challenge unlawful 
maritime claims in the South China Sea. In the South China 
Seas, have any of the claimants formally established a 
territorial sea that would provide a 12-nautical mile baseline?
    Dr. Kraska. Thank you very much for the question. Sir, in 
answer to the question, my view is that in Article 3 of the 
U.N. Convention on the Law of the Sea, it says that states may 
establish baselines from which a territorial sea is measured, 
and, therefore, there are no territorial seas unless those 
baselines are established. They have not been established in 
the Spratly Islands. There are illegal straight baselines that 
China has purported to establish around the Paracel Islands. 
So, my view would be that there are no lawful territorial seas 
around any of those islands.
    Furthermore, I would say that there is no resolution on 
title to those features. And that is the features may be 
entitled to a territorial sea and baselines assuming that they 
are under the sovereignty of a state, but if they are not under 
the sovereignty of the state, then it is impossible for there 
to be any sort of baseline or territorial sea. For example, if 
a country claims to have a territorial sea around Antarctica, 
the United States would not recognize a putative or theoretical 
territorial sea there, so why would we then recognize a 
putative territorial sea around a rock just because some other 
country claims that they happen to own it?
    Mr. Forbes. Do you have any opinion as to why the U.S. 
policy has been to apply our military forces in the pursuit of 
innocent passage and not a more rigorous military application 
that would serve to rebuke any unlawful claimant's claims?
    Dr. Kraska. I am not--I don't have a view on what the 
considerations were within the U.S. Government. I just think 
that it is the wrong decision, that is, that I would not have 
selected innocent passage, which is the most restrictive 
navigational regime in the Law of the Sea in order to challenge 
unlawful claims. In particular, we have done so around some 
features which are, even if they are, they are not subject to 
appropriation by any state, for example, submerged features or 
low-tide elevations, which can never, even if they were claimed 
by a state, they could never generate a territorial sea, so it 
would not make any sense to observe a territorial sea around a 
feature such as that.
    And the arbitration tribunal brought some clarity to the 
Spratly Islands by identifying a number of features, including 
several features that China has turned into artificial islands 
that could never be considered to have a territorial sea, in 
particular, Mischief Reef, for example. So I would recommend 
that Mischief Reef be overflown by aircraft. There is no 
national airspace above it, no matter which country tries to 
claim it, and there is no territorial sea around it. High seas 
freedoms and full overflight rights apply on those features.
    Mr. Forbes. Ms. Glaser, the Center for Strategic and 
International Studies has found that Chinese maritime law 
enforcement ships were involved in over 70 percent of the major 
incidents in the South China Sea since 2010, including 
aggressive harassment, ramming of foreign coast guard ships and 
fishing boats. What steps do you believe the U.S., our partners 
and allies, should take to dissuade China's use of maritime law 
enforcement ships in an aggressive manner contrary to 
international norms that further China's unlawful claims?
    Ms. Glaser. Congressman, this issue that you raise is 
really quite worrisome. I think it doesn't get enough 
attention. China is now building exceedingly large white-hulled 
ships. Some of them used to be navy ships. They are painted 
white. They have larger numbers than others. They use these 
ships, vessels, to harass neighbors, whether it is through 
water cannons or rammings. When the Chinese had positioned a 
large oil rig off of Vietnam's coast in 2014, the activity 
between both sides' coast guards was really quite worrisome. I 
believe, although our data is from public sources, and, yes, we 
have found that in 70 percent of the instances, China is 
involved.
    Nevertheless, if you were to talk to fishermen in the 
region, particularly those Filipinos who make their living from 
fishing around Scarborough Shoal and have been unable to fish 
there since 2012, those who have tried to go back have been 
harassed and have put their own lives at risk, and many of them 
are waiting for the implementation of the ruling which has 
found that the Philippines has traditional historic fishing 
rights in those waters.
    So I think that the United States needs to--first, we are 
already negotiating in our Coast Guard with the Chinese some 
procedures that really draw from the COLREGS as to what is 
legal and illegal in terms of interactions when coast guard 
ships, white-hulled ships, encounter each other at sea, but 
this is less important between the United States and China than 
it is between China and the coast guards that are immediately, 
of course, in the South China Sea, as the U.S., of course, 
operates many Navy ships, but our Coast Guard is really not 
very active and present in the South China Sea.
    So I believe it is imperative that we strongly encourage 
this kind of agreement between ASEAN [Association of Southeast 
Asian Nations] and China that is ultimately drawing from what 
is already existing in the COLREGS, because China is violating 
these laws on a daily basis. Thank you.
    Mr. Forbes. And, Dr. Erickson, in addition to the use of 
their navy and maritime law enforcement vessels, the Chinese 
appear to increasingly rely on their robust fishing fleet as a 
third sea force, and you mentioned that in your comments. It 
appears that the United States has limited recourse when these 
vessels are employed. Do we have a strategy for countering this 
kind of gray-zone aggression, and do we need one, and what 
steps should the U.S. be taking to deter or defeat this kind of 
activity?
    Dr. Erickson. Well, Congressman Forbes, I applaud your 
attention to this important but under-considered issue. Clearly 
how to address American interests and regional stability in the 
South China Sea is a challenging problem, but as a start, we 
have to understand it fully in order to formulate the right 
policy. And heretofore, not publicly focusing on one of the 
three major sea forces is an issue. As you correctly point out, 
China has the world's largest fishing fleet, and a small elite 
within that fishing fleet is brought into the maritime militia. 
A small elite within that maritime militia is charged and 
entrusted with participation in international sea incidents, 
including harassment of our vessels.
    So I think we need to start by calling them out on this, 
make it clear that we are wise to Beijing's game. I think we 
need to find some way to communicate to China that we will not 
be stymied by harassment from these vessels. I am not a 
maritime lawyer, and I am not going to play one in a hearing or 
on TV, but for me, the bottom line is clear: We need to be in 
the solutions business regarding U.S. policy, and there is no 
way we should allow even the possibility in a future U.S. 
freedom of navigation operation, one of our mighty destroyers 
to become a Gulliver surrounded by Lilliputs by comparison of 
Chinese maritime militia forces. There has to be some way that 
we can avoid being Gulliverized in this fashion, and I think we 
need to find it soon and communicate that clearly.
    Mr. Forbes. My last question, and this isn't a surprise to 
you. Mr. Courtney and I talked to you about this. But we have 
members from all across the country in here. Some from Indiana, 
Missouri, Texas, not exactly surrounded by oceans in their 
districts.
    Why is the South China Sea important to any of those 
individuals? When we hear of middle America and we go talk, you 
know, to those individuals, why do they care about this and why 
should they care about this whole issue?
    Ms. Glaser, we can start with you, but each of you, give me 
your best 60-second shot to explain that to them.
    Ms. Glaser. Well, Congressman, I have already addressed 
this to some extent in my remarks. But I do think that the 
issue is really about having a rules-based order; that if there 
are no international rules that everybody agrees to and abides 
by, then you have chaos and anarchy in a region where we have 
enormous interest. So this is a major strategic waterway. 
Everybody quotes the figure of $5.3 trillion in trade that 
passes through those waters. I am actually trying to update 
that figure. It is from 2011, so I am gathering data.
    There is the issue of a potential internal sea that the 
Chinese could declare there that ultimately would oust 
countries that occupy those features, so that countries in the 
region that feel United States is an unreliable partner, and 
they then have to accommodate to China, and they lose their 
autonomy. I think that that is a world in which the United 
States would suffer, because this would have implications for 
other interests, economic realm, in the trade area. For 
example, the Chinese would be greatly emboldened if they 
achieve the goal of gaining effective control over the waters 
and the airspace of the South China Sea.
    Mr. Forbes. Dr. Kraska.
    Dr. Kraska. Thank you, Mr. Chairman. The oceans and the 
airspace above them provide the connection between the United 
States and our friends and allies throughout the world, and so 
the ability to operate freely in this global domain is the 
cornerstone of American power and American position in the 
world. It has been so for at least 100 years, and our 
connection with other countries is important to inoculate those 
countries from would-be hegemonic powers, such as China in East 
Asia or Russia in Europe, that might come to dominate those 
areas. And the only way that those countries can stand is with 
a connection--stand independently, is with a connection to the 
United States.
    The United States has gone to war numerous times to 
vindicate its right of freedom of navigation because we 
understand that we are essentially a hemispheric island nation, 
and we care very much about whether Europe or Asia is dominated 
by an emerging challenger.
    I would end with saying that the Vietnam war, for example, 
one of the major instigations was the Gulf of Tonkin incident, 
and a challenge to U.S. ability and rights and freedoms to 
operate in the global oceans. So the South China Sea is a 
dangerous flashpoint, one of the most dangerous in the world, 
and the United States has to be steadfast in order to maintain 
its rights and freedoms in this area because there is one rule 
set that applies throughout 70 percent of the planet. And if 
there is a different set of rules that are going on in the 
Persian Gulf or in South China Sea, then it puts at risk 
freedom of navigation anywhere else in the world.
    Mr. Forbes. Dr. Erickson.
    Dr. Erickson. You have all called us here today because you 
have been entrusted with representing the jobs and the values 
of the people in your district. And where that all comes 
together is in an open and rules-based international system 
underwritten, in part, by American seapower. It doesn't just 
sustain itself. Now a critical part of that international 
system, a critical part of the global commons is being 
challenged in a new way because China is trying to carve out 
the South China Sea as a zone of exceptionalism where those 
open and free and productive and prosperous rules and norms 
don't fully apply, where they are subordinated to Beijing's 
political priorities.
    If we allow that to happen, it is not just going to have an 
impact on our friends and allies in the immediate region. It is 
going to reverberate across the world in terms of economic 
growth and trade and factors that will ultimately make it back 
to everybody's district. So I think we have a strong shared 
interest in upholding that freedom and that openness in the 
South China Sea.
    Mr. Forbes. Thank you. Mr. Courtney is recognized for any 
questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman. And thank the 
witnesses for your testimony and all your hard work over the 
years on this issue which, obviously, with recent events, is 
something that really more Members need to listen to and focus 
on. I just want to, again, follow up on some of the testimony 
regarding the whole process that the tribunal just went through 
in terms of reaching its decision.
    And Ms. Glaser, again, just can I ask a couple quick 
questions. Because of the fact that we never became a full 
signatory, the U.S. actually was shut out in terms of being a 
party or any kind of participant in that process. Is that 
correct?
    Ms. Glaser. Yes, it is. The United States, I believe, was 
barred from sending an observer to the proceedings because it 
is not a signatory to UNCLOS.
    Mr. Courtney. So even though we obviously have a national 
interest, which all of the witnesses have talked about in that 
part of the world--we are a Pacific nation--the fact of the 
matter is is that we, again, couldn't file a complaint. We 
could not appear even as an observer and, really, we just had 
to kind of rely on the kindness of strangers in terms of 
advancing our interests. Is that correct?
    Ms. Glaser. Yes. My understanding is that we did get back 
briefs from our allies. I think the Australians did send an 
observer, of course, several other nations, but there is no 
substitute for having the United States and its own person 
having somebody present in the room. So we do not--we are 
unable to avail ourselves of really all of the benefits of 
UNCLOS, but we do really have to share the burden of 
undertaking the obligations.
    Mr. Courtney. Correct. So, again, in your testimony and the 
other witnesses' testimony in terms of the follow-on to the 
tribunal's decision, I mean, inevitably, the question of a 
remedy or enforcement in terms of, again, protecting the 
tribunal's decision, which the U.S. agrees with, is going to 
inevitably require U.S. Navy assets, you know, interaction with 
our allies in that region. I mean, it has an impact in terms 
of, you know, the work of this committee, in terms of, you 
know, the Navy's resources and policies.
    Ms. Glaser. Yes. I agree. I think there has long been 
concerns and some of them, perhaps, very legitimate about the 
price or costs that the U.S. would have to bear if we ratify 
UNCLOS. But as time has gone on, as I have observed, the 
maritime issues and challenges that we face around the world in 
the areas that I focus on really are East China Sea and South 
China Sea. We are just paying an enormous price in terms of 
American credibility, moral authority, and our ability to act 
in the region effectively. So we are constantly criticized not 
only by China, but by our friends in the region for not taking 
that step when, in fact, we were deeply involved, of course, in 
the negotiations which produced the treaty.
    Mr. Courtney. And so looking at your suggestions about what 
should the U.S. do going forward, I mean, persist in calling 
for compliance with the ruling, warn China against taking 
actions contrary to the ruling. I mean, the fact is is that we 
are in a somewhat conflicted position about pointing to a 
ruling that, again, we are not a full-bodied participant in 
terms of that process. And as you say, it just sort of 
undercuts, certainly, the moral standing of defending the rule 
of law, and kind of demoralizes our friends in that part of the 
world in terms of our ability to assert it.
    Ms. Glaser. I hear this from our allies, our friends in the 
region quite frequently when I travel to the region, when 
diplomats from those countries visit Washington, DC, they do 
not understand why the United States has left itself open to 
such criticism, particularly by the Chinese who say, Well, the 
United States hasn't ratified and become a signatory, so why 
should we even listen to U.S. objections about Chinese behavior 
and so-called, what they would say so-called lack of compliance 
with the arbitral tribunal.
    So this is a huge challenge for the United States to deal 
with going forward. I think that it is long overdue for the 
United States to become a signatory to the Convention.
    Mr. Courtney. Thank you. And Mr. Kraska, you mentioned 
President Reagan's statement of principles back in 1983. Again, 
included in that whole sort of series of decisions or 
announcements was also sort of the problems that existed at 
that time in terms of objections to the language of the treaty 
as it was crafted at that point. Can you just kind of fast 
forward us a little bit in terms of whether or not President 
Reagan's concerns still stand unchanged, or whether or not 
there actually has been some intervening events?
    Dr. Kraska. Thank you, Congressman, for the question. So 
the ocean policy statement did object to one provision, one 
part, actually, to be more accurate, of the U.N. Convention on 
the Law of the Sea which was part 11 on seabed mining. And the 
Reagan statement says that the other portions of the Convention 
reflect customary international law and the norms in the United 
States would comply and expected, actually, other countries to 
comply as well.
    Part 11 underwent a transformation between 1982 when the 
Convention was adopted by the U.N. Third Conference and 1994, 
mostly through the efforts of the United States, as well as 
some other countries, because the United States was not the 
only industrialized country that declined to sign the 
Convention. And the major intervening event was, of course, the 
fall of the Berlin Wall and the, sort of, lack of respect for 
socialist models.
    And part 11, the original part 11 was based on a socialist 
sort of redistribution of wealth type of model, and after the 
Berlin Wall came down and it became apparent that no 
industrialized countries were going to sign the treaty, it was 
revised through an amendment, an implementing agreement for 
part 11. The implementing agreement has a number of--it 
reflects a number of positive developments. The first is that 
the United States is guaranteed a position on the Council for 
the International Seabed Authority. And the Seabed Authority is 
the authority that grants seabed licenses for areas beyond 
national jurisdiction. The United States has a guaranteed seat 
on that Council, and that Council is run through consensus, 
which means the United States has an effective veto over the 
decisions of the Council as well the distribution of funds.
    One of the Reagan objections was that the International 
Seabed Authority could take the royalties from seabed mining 
and transfer those to countries for development as well as 
national liberation movements. And the national liberation 
movements was taken out and the United States, again, placed 
with a permanent seat on the Council. Those were the major 
features. There are some other tertiary benefits, such as 
marine technology, in the first or original version, was going 
to be transferred through mandatory means. In the revised 
version, marine technology is to be transferred on a market 
basis. And so part 11 underwent an entire transformation to 
sort of update and modernize it from a 1970s socialist 
construct to a 1990s capitalist economic and more liberal 
construct.
    Mr. Courtney. Great. Thank you. And I think that is really 
important to flesh out that record because, again, we still 
sort of hear the same objections that really, I think, have 
become outdated because of the modifications that took place, 
and, obviously, the events of the last year or so show that 
this is no longer an academic debate over UNCLOS. I mean, we 
really need to get off the bench and get into the arena in 
terms of having an impact on critical decisions.
    Again, House Resolution 631 is out there for Members if 
they wanted to sign on calling on the Senate to move forward. 
And with that, I yield back.
    Mr. Forbes. Chairman Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our witnesses for joining us today. I wanted to get each one of 
your perspectives on where we are now in the Chinese effort of 
using essentially incrementalism to move the international 
norm. They continue to profess that things aren't happening. 
They don't intend to militarize the area. We saw in September 
2015, President Xi Jinping stated that they had no intention to 
militarize the Spratlys, yet, having visited there, and seen a 
hardening of those islands, airstrips being built, antiaircraft 
batteries being put in, clearly an effort to militarize those 
areas.
    It is concerning to me that we see this effort to delay 
negotiations. You know, don't negotiate, don't negotiate. Talk 
about, let's continue to push things down the road, while at 
the same time, moving the norm. And then the United States is 
put in the position to either have to take aggressive action to 
try and stop that, or we find ourselves in a new, less 
acceptable international norm. And let's face it, we get to a 
certain point and then that is going to become the reality.
    The question I have is, are the current U.S. freedom of 
navigation operations [FONOPs] and the effort to enforce the 
U.N. Convention of Law of the Seas ruling, is that enough by 
itself to reassure our allies? And should we be doing more to 
pull our allies in to be part of this freedom of navigation 
operation so that there is more than just a U.S.-China scenario 
here, where other nations or folks in the region say, listen, 
this is Japan that is part of this, this is Australia that is 
part of this, pursuing these FONOPs in the area. Because short 
of that, if this continues, it will get to a point where China 
says, listen, we know the United States is not going to take 
action to try to reverse any of this. And we even hear that 
from our naval leaders in the area. So I would love to get your 
perspective about China pushing this effort of incrementalism, 
creating, essentially, these unilateral actions that create a 
new norm and really kind of daring us to do anything other than 
the current freedom of navigation operations and try to change 
the status quo.
    Ms. Glaser. Thank you very much, Congressman. You refer to 
Chinese President Xi Jinping's statement, which he made in the 
Rose Garden, that China doesn't have the intention to 
militarize the Spratlys. I believe that Xi Jinping probably had 
a very different definition in mind of militarization. I think 
the Obama administration tried to hold his feet to the fire, 
but, clearly, militarization continues. And we have seen recent 
satellite imagery made public by our Asia Maritime Transparency 
Initiative at CSIS which has shown that there are hardened 
shelters on at least three of these islands capable of 
accommodating about 24 fighters; what looks like that they are 
building is emplacements for surface-to-air missiles. They 
could be putting in cruise missiles in the future. So, it is 
hard to state any more clearly that militarization is underway.
    The United States, I think, must stop any further land 
reclamation. This is essential.
    There were some signs that the Chinese may have been moving 
earlier this year to start dredging at Scarborough Shoal. If 
they were, perhaps the United States did deter them. It is 
critically important that our President has told Xi Jinping 
personally, ``Do not go forward and do that, or there is going 
to be a U.S. response.''
    We have to be able to be willing, not just able but 
willing, to put the United States on the line here and incur 
some risk. And if we are willing to incur some risk, then I 
think the Chinese will take us more seriously.
    One of the problems in this regard is that, because the 
United States has prioritized cooperation with China on a vast 
number of issues, some of which are very important--climate 
change, the agreement with Iran to prevent Iran from going 
nuclear--there has been, I think, a belief in the 
administration that we can't have those and at the same time 
put pressure on China to stop taking destabilizing actions in 
the South China Sea. But I think we can do both. And we have to 
be willing to very clearly tell the Chinese that their behavior 
is unacceptable.
    I would agree with you, I guess with a bit of a caveat, on 
the question of whether we should be conducting FONOPs with 
allies, because I would distinguish between Japan and 
Australia. And, ultimately, this is a sovereign decision for 
our allies to make.
    I think that Australia is very like-minded with the United 
States on this issue. If they were to conduct their own 
patrols, I would be quite supportive of that. Maybe they would 
be willing to do that jointly with us; I personally don't think 
it is necessary.
    Japan is a bit of a different case. As I am sure you know, 
the Chinese are putting a great deal of pressure on Japan in 
the East China Sea. And the day that they sail a navy ship 
inside 12 nautical miles of a Chinese-occupied territory in the 
Spratly, I worry that the Chinese are going to sail a navy ship 
inside the 12 nautical miles around the Senkaku [Islands]. And 
that would be a very big price, I think, for Japan to pay.
    Having said that, there is a lot that the Japanese can and 
are doing in the South China Sea.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Mr. Larsen is recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Dr. Erickson, good to see you again.
    For those who have not traveled to China with Andrew, where 
he speaks fluent Chinese, and you are hanging around talking to 
officers in the PLA, it is very valuable to have Dr. Erickson 
in the room with you. So I will note that.
    And my first question is for you, Dr. Erickson. I think you 
are the one who mentioned whole of government. I am sure all of 
you have some concept of what that might mean. But how would 
you define or redefine a whole-of-government approach on this, 
with regards to this particular issue?
    Dr. Erickson. Well, Congressman, it is great to see you 
again. And it was a great pleasure to be with you in China. And 
I knew we could always find Starbucks coffee in the morning 
with you there. That was part of your trademark. And I think it 
is well-recognized in your home district.
    Mr. Larsen. For a while, it used to be part of Starbucks' 
trademark until it went to China.
    Dr. Erickson. Excellent.
    So I think there is a lot that needs to be done in 
implementation. This is an evolving effort, but the starting 
point is very simple. The next U.S. administration needs to 
issue a comprehensive strategy. It is extremely viable; it is 
extremely doable.
    I think it could be drafted in a fairly short period of 
time. There are numerous documents to draw on. The last two 
U.S. maritime strategies have had a lot of positive and robust 
language about the importance to the U.S. of maintaining the 
global system. We do not seek enemies and monsters to destroy, 
but, nevertheless, we are committed to the support and 
maintenance of that system. If another state decides to try to 
disrupt that, let's say in the South China Sea, in our effort 
to secure that system, we would then need to push back and 
handle that issue as necessary. Lots of great language right 
there.
    In the Clinton administration in the 1990s, the Pentagon 
issued a series of regional policy statements. That offered a 
good series of examples. And during this current 
administration, there have been a smattering of documents, from 
a White House statement regarding the rebalance--which I agree 
with everything that has been said; that is a good overall 
initiative--to a brief State Department glossy.
    The point is this needs to be taken all together, under the 
stamp of a President, the next President, and this will lay a 
powerful basis for further action.
    In the absence of that, I have heard from many 
interlocutors in allied countries. There is confusion as to 
what the real policy is. There is uncertainty as to what the 
rebalance means in practice. And there has been frustration 
when people have been directed to read a bunch of different 
documents and various media statements by different 
spokespeople that we all know, in this busy town, no one who is 
doing an active leadership job has the time to sit down and put 
all together.
    So there is a lot that needs to be done, but I think there 
is a very good and positive place to start. And I am optimistic 
that the next President will see move to do just that.
    Mr. Larsen. Thanks.
    And I think it does--this is not a question, but it does 
beg the question of, with all these statements, with all these 
policy statements already made and these other actions being 
taken, why hasn't there been the momentum to keep a consistent 
or a comprehensive strategy going? And that is, I think, a 
legitimate question. I am not asking folks to answer that right 
now.
    Dr. Kraska, can you expand a little bit on the point about 
a comprehensive strategy, but specifically with regards to use 
of multilateral venues to essentially enforce UNCLOS even 
though we are not signatory--or we have not enforced it, we are 
not enforced to it. I think it is an interesting idea you 
mentioned in your testimony. I would like to hear a little more 
about it.
    Dr. Kraska. Thank you very much for the question.
    I would suggest it wouldn't be an enforcement mechanism, 
but, rather, there are multilateral institutions that are 
stakeholders in the Law of the Sea as well as other 
international instruments or conventions, such as the Collision 
Regulations or the Chicago Convention on Civil Aviation, and 
these institutions have not been utilized by the United States 
or adequately by other countries.
    The United States, for example, to my knowledge, has not 
partnered with Vietnam when Vietnam complained that Chinese 
aircraft are not complying with ICAO air traffic control 
regulations over the South China Sea. The United States should 
use the venue of the International Civil Aviation Organization 
and join Vietnam in the effort to do that.
    The same with the International Maritime Organization. The 
United States is a member. It doesn't actually require us to be 
a member of the U.N. Convention on the Law of the Sea, but both 
the United States and China and numerous other countries are 
members of the international convention on the Collision 
Regulations. And so that is a binding treaty commitment that 
has been violated, that the arbitration found was violated by 
Chinese vessels.
    China also has flag state responsibilities, not just for 
its government ships such as coast guard vessels but to 
maintain certain standards for its fishing vessels, including 
the vast maritime militia that Professor Erickson described.
    So I think that there are a number of venues that we 
haven't fully utilized that could be brought to bear, 
including, ultimately, the U.N. Security Council. Sure, China 
has a veto in the Security Council, but, nonetheless, the 
Security Council is the primary organ for international peace 
and security. And I think we are all here deeply concerned 
about the threats to international peace and security in the 
South China Sea, and so there ought to be some way to use that 
institution as well, if nothing else, just to make a statement. 
It will project to other countries, as well as to China, the 
seriousness with which we take what is going on in the area.
    Mr. Forbes. Mr. Russell is recognized for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    There is no doubt that, with a third of the world's 
commerce flowing through this body of water, it has everybody's 
interest. You know, I have even proposed, if China's statements 
are truly about rescue operations, aid and navigation, aid and 
communication, then let's take them at their word and assist, 
like Antarctica. I mean, we have international use there, 
right? For studies, for scientists, everything else. And if it 
is truly a third of the world's commerce that is flowing 
through the South China Sea, then, well, why don't we all roll 
up our sleeves and go out there and we will put our Coast Guard 
helicopters and our everything else? I mean, we are all in it 
together.
    I think there is a diplomatic path for that, by the way. 
But that ought to be our first and chief aim, rather than 
putting ourselves on a bumper car--you know, rather than lanes 
of competition, economically, we are putting ourselves on the 
smash-up derby over pieces of coral. Imagine what would happen 
in the world if the world's two largest economies went at war. 
It would be devastating.
    And I don't see a lot of diplomatic effort in that way. But 
no one loves peace more than those that have helped preserve 
it. I guess there has to be a comprehensive solution rather 
than just militarily or economically. It has to be all of the 
instruments of national power and international power.
    You know, will China be unforgiving? Well, you know, I 
don't know. Since the Treaty of Wangxia, we have been friends, 
since 1744. Our entire World War II policy has been about--we 
entered the war largely over Chinese interests and sovereignty 
interests for China. With the exception of the 3 years we 
fought each other in the Korean war, you know, we have managed 
to somehow make it work. I have faith enough in the two great 
nations that maybe there is still some opportunity to do that. 
And I know you feel those same convictions.
    With that said, I am a little concerned about the Treaty of 
the Sea because some things haven't changed. Great, we are 
making progress on the deep, you know, mining on the 
continental shelf. And those are--especially the continental 
shelf is extraordinarily important to the resources of the 
United States. With $18 trillion in debt, we could use some 
good news on mineral development.
    Would any of you care to address--there are provisions that 
are against intelligence and submarine maneuvers in the Treaty 
of the Sea. That would have a material impact on the one nation 
that possesses a great capacity in that area.
    Submitting to international sovereignty jurisdictions also 
could weaken our argument on the International Criminal Court 
arguments, where we don't want to submit to International 
Criminal Court positions because of our U.S. sovereignty. 
Signing up for Treaty of the Sea sovereignty disputes could 
also spill over into that.
    And, again, this is open discussion. If there are some 
brilliant minds sitting at the table, I would really like your 
thoughts on some of those issues.
    Dr. Kraska. I am not a brilliant mind, but I am a lawyer.
    Mr. Russell. Well, you had me until you said that, you 
know.
    Dr. Kraska. And, in fact, I wrote an article just on this 
topic, on submarine operations.
    So it has been discussed by administration officials, both 
in the former as well as the present, that the Law of the Sea 
Convention affords the privilege or the right of innocent 
passage in the territorial sea that is within 12 miles. In 
order to invoke that right, a ship must be on the surface--a 
submarine must be on the surface and show its flag.
    That doesn't, however, say that the submarine must do so. 
In other words, the submarine, if it wants to have the right of 
innocent passage, would be on the surface and show its flag 
and, therefore, would be cloaked in the color of law with that. 
If the submarine is not on the surface and within an area that 
is the territorial sea, there is nothing in international law 
that says it can't be there. It just says it doesn't have a 
privileged status or a right to be there.
    So, in general, espionage goes on all the time among 
states, and it is not contrary to international law. There are 
rules, for example, of collecting intelligence within certain 
countries, but there is no international law that forbids the 
collection of intelligence. And so a submarine within 12 
nautical miles of a shoreline is presumably not in innocent 
passage, but it is not patently unlawful per se.
    With regard to intelligence operations and military 
activities generally, of course, the United States has already 
indicated that it would invoke the declaration under article 
298 of the Convention and exercise an optional exception, which 
then forecloses any sort of arbitration or International 
Tribunal for the Law of the Sea from second-guessing U.S. 
military operations.
    The United States is not alone in doing so. Numerous other 
countries have done so--France, the United Kingdom. And China 
has done so. In fact, China probably would have been better 
served and maybe would have suffered, I still think, a big loss 
with the arbitration, but probably a narrower award if it had 
invoked article 298, as was its right to do so. And I would 
expect the United States would do so.
    And once a country invokes article 298, then it is not 
reviewable by any sort of arbitration or any tribunal. The 
country invoking article 298 also specifies the scope of what 
the content of that is. So, assuming that we have faith in U.S. 
leaders to exercise the optional exception, then there would 
not be any sort of ability of a tribunal to second-guess U.S. 
military or intelligence collection.
    Mr. Russell. Well, thank you.
    And thank you, Mr. Chairman.
    Mr. Forbes. The gentlelady from Hawaii, Ms. Gabbard, is 
recognized for 5 minutes.
    Ms. Gabbard. Thank you. Thank you, Mr. Chairman.
    Ms. Glaser, I wanted to follow up on your response to Mr. 
Larsen about the scenario of a Chinese naval ship entering 
within the 12 nautical miles of the Senkakus. And it was the 
last thing that you said. You spoke about this being a very big 
price to pay, but that Japan is already kind of taking 
proactive actions in preparation should that scenario play out.
    Can you expand on that, both the price--you know, what the 
most likely versus most dangerous courses of action would be if 
that scenario played out?
    Ms. Glaser. Well, thank you for the question.
    First of all, I think my last point was that Japan is doing 
a great deal in the South China Sea even though it is not 
conducting, as far as I know, patrols itself or jointly with 
the United States inside the 12 nautical miles around 
particular features.
    So it is providing coast guards, aircraft to individual 
countries like the Philippines, Vietnam, Malaysia to enhance 
maritime domain awareness and coordinating with the United 
States in that regard, as well as with Australia--South Korea 
is also taking some very important measures--so that countries 
can actually know when there are actions being taken by other 
nations inside their exclusive economic zone.
    So this is, I think, a very important program and enables 
those countries, or will over time, to contribute more to their 
regional security. So Japan is very actively involved in this.
    But, of course, their main concern, their priority security 
concern is the East China Sea. And we see, of course, Chinese 
operations continuing on a daily and weekly basis, where there 
are mostly white-hulled ships, maritime militia probably as 
well, that are operating inside 12 nautical miles. It is 
approximately three times a month. Recently, they have been 
using more ships each time they send ships. It used to be two 
or three; now it is three or four. And, recently, we saw a very 
large number of these government-owned ships that were inside 
the 12 nautical miles around the Senkakus.
    China's naval ships have been operating closer to the 12 
nautical miles and really the contiguous zone outside of that 
12 nautical miles, but they have not yet entered into the 12 
nautical miles, which I think would be extremely dangerous.
    The Japanese are taking measures to deter China from 
continuing to put pressure on the Senkakus, which, of course, 
they administer. I think that the Chinese have been, to some 
extent, deterred not only by what the Japanese are doing but by 
the fact that President Obama, this administration and also 
prior administrations, although not at the Presidential level, 
made it quite clear that the Senkakus are covered under article 
5 of the U.S.-Japan Mutual Security Treaty.
    But, by contrast, of course, in the South China Sea, we 
have not made very clear statements, and I think this has 
created this gray-zone area where the Chinese have taken 
advantage. And it is a difficult challenge for the United 
States and other countries to deter Chinese activity in the 
South China Sea, whether it is dredging or further 
militarization.
    Ms. Gabbard. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. And, Dr. Kraska, could I just follow up just a 
little bit on perhaps my friend from Oklahoma's questioning 
about the U.N. Convention on the Law of the Sea?
    Before this convention--and since you wear the taint of 
being a lawyer, you are on there to do that--we had customary 
international law. And there was a body of international law, 
which people studied and nations complied with or didn't comply 
with as they saw fit. If there was a dispute, how was that 
resolved?
    Dr. Kraska. Thank you for the question.
    Just as in national law or in every jurisdiction that I am 
aware of, the later in time prevails if there is a dispute 
between two bodies of law.
    Mr. Forbes. No, I meant what body would actually decide 
that dispute. So, in other words, two countries differ on--when 
ordinary international law, it is floating out there, and China 
takes one position, the Philippines take another position. 
Before you had the U.N. Convention on the Law of the Sea, who 
was the arbiter of what that law was?
    Dr. Kraska. States can only be adjudicated under their 
consent, so it would have to be the International Court of 
Justice [ICJ] or some sort of ad hoc arbitration.
    Mr. Forbes. So they would have to agree to who that was.
    Dr. Kraska. That is right.
    Mr. Forbes. Under the U.N. Convention on the Law of the 
Sea, who would that arbiter be?
    Dr. Kraska. There are four different mechanisms under the 
U.N. Convention on the Law of the Sea. And if the parties can't 
agree on which mechanism--it could be the ICJ, it could be the 
International Tribunal for the Law of the Sea--and there are 
two types of arbitration. It would be an annex 7 arbitration, 
just as the China-Philippines--China did not appear, and so 
that was the default mechanism, which is an annex 7 
arbitration.
    Mr. Forbes. And I guess one thing, just to put it out on 
the record as a little counter to the push to sign this treaty, 
is that it is not like there is no customary international law 
out there. That law is out there. It exists. You could look at 
a treaty like this, even if you didn't sign it, and incorporate 
that as part of that body of international law.
    But I think one thing that there are some people concerned 
about is the United States has a culture that, when it signs a 
treaty, it will comply with that treaty, and, therefore, if it 
had a ruling go against it, it would comply with it. But there 
is some concern that when you get a China that is a signer to 
the treaty but then says it is not going to comply with it, 
that maybe there is a question as to why the United States 
would want to submit its sovereignty to that type of process.
    And, you know, I would just throw that out as another part 
of that debate which I think is out there as well.
    With that, gentlemen, ladies, we also had told each of you 
that we were going to allow you to have any follow-up comments 
you had, clarifications, things that we didn't cover that maybe 
you would like to.
    Dr. Erickson, why don't we start with you this time, and we 
will end up where we started, with Ms. Glaser.
    Dr. Erickson. Absolutely.
    Well, thank you very much, Mr. Chairman, Ranking Member 
Courtney, members, for this opportunity to call attention to 
China's third sea force in the context of South China Sea 
operations.
    There are many things we need to do to further U.S. 
interests and uphold the international system in the South 
China Sea, but I think we need to start with an honest and open 
discussion and understanding of what China is actually doing 
there. And it has been far too long that we have ignored or not 
adequately paid attention to the existence of this other sea 
force that is on the front lines.
    Just a couple quick additional thoughts on what we can do 
about this.
    First of all, this is a force that thrives in the shadows 
of plausible deniability. And I have tried to make the case 
today that it is well within our power to shine enough light to 
dispel a lot of those shadows. Thus exposed, this is in many 
ways a very limited, weak, and vulnerable force. And I believe 
that we can inject enough doubts into the minds of China's 
leaders about its use in the scenarios we worry most about that 
we can change their decision-making calculus and make it much 
less likely that we would have to be confronted by elements of 
this force in a difficult, disorienting, or sort of CNN effect 
publicly--a public optically bad kind of way.
    There is also an additional source of leverage I would like 
to suggest. I am proud that I have had a chance to be involved 
in naval relations between the U.S. and China, but I think we 
need to make it clear in our policies toward China that we look 
at their three sea forces comprehensively.
    We cannot tolerate a situation in which their navy bear-
hugs our Navy in search of best practices and diplomatic cameo 
ops as a kind of a good cop while their other two sea forces, 
the coast guard and the maritime militia, play the role of bad 
cops doing the dirty work in the South China Sea.
    So I think, by looking at this issue comprehensively, by 
raising attention to it in Congress and asking the 
administration to do the same, by communicating all of this 
clearly with resolve to our Chinese interlocutors, I think we 
can create a much better baseline and understanding in the 
South China Sea. It won't solve all the problems, but it will 
reduce risks, put us in a much better position.
    Thank you.
    Mr. Forbes. Thank you.
    Dr. Kraska.
    Dr. Kraska. Thank you, Congressman.
    I would close by underscoring the importance of force 
structure and forward presence in the South China Sea and in 
East Asia generally. International law and particularly 
customary law is built upon state practice, and a virtually 
present force that is tethered in San Diego or somewhere else, 
a notional force that can arrive in a crisis, frankly, does not 
build the state practice. And so a virtual presence is an 
actual absence.
    And hulls in the water matter. In the warfighting context, 
it matters, perhaps, that a modern destroyer has the capability 
of 10 warships in the past, but it doesn't matter for 
international law. And so I think that, for example, having the 
LCS [littoral combat ship] vessels operate from Singapore is a 
big step forward and greater presence. I think more hulls are 
needed, more hulls in the water.
    I also think we should talk plainly about the issues. I 
have mentioned some of the multilateral institutions that we 
can approach and make it a priority within the U.S. delegation 
to bring these issues up.
    And it begins even with the nomenclature that we use for 
China's claims, which in the U.S. Government we call them 
``excessive claims.'' I would suggest that they are not 
excessive claims, they are unlawful claims. And we ought to 
just speak plainly. There is no legal authority to draw a big 
circle in the water a thousand miles long and then claim it as 
some sort of special zone or internal waters. And so we should 
get rid of these euphemisms, which I think raise doubt and 
ambiguity and play into China's hands. These are unlawful 
claims.
    I also would recommend that we link our policies, global 
oceans policies, in particular the South China Sea, to other 
issues of bilateral relationships. This is what we did during 
the Cold War with the Soviet Union, I think to great effect, 
and we should be willing to do it in the South China Sea. The 
threats to freedom of navigation that emanate from the South 
China Sea and reverberate globally are a great enough threat to 
the United States and place enough of our core interests, our 
national interests at stake that we ought to be willing and 
able to link Chinese conduct to other aspects of the 
relationship.
    And, finally, in respect of your comment about 
noncompliance, this is always something that is faced in 
international law, and that is why I mentioned it. I don't 
expect that China will suddenly comply with the Law of the Sea 
Convention.
    I think reasonable people can have different views on it. 
My perspective is that the benefits of the Law of the Sea 
Convention do outweigh any sort of perceived risks. We 
encounter the same sort of thing with the U.N. Charter, for 
example, which countries violate sometimes with impunity; 
China, in fact, violated it in 1974 when it seized the western 
Paracel Islands from Vietnam, violating article 2, paragraph 4. 
And yet we are still a member of the United Nations because we 
believe that it is better to be within the tent than outside of 
the tent. The same with the World Trade Organization; it has a 
mandatory dispute resolution process.
    So there are risks of noncompliance, and that is why I 
would say that joining the Law of the Sea Convention is not the 
end of the process. And I think some advocates may view it as 
the end of the process. I view it as just one point on the way 
station to continue the struggle to shape the law. And so the 
problems will not go away when we join the convention; I just 
think we will be in a better position.
    Mr. Forbes. And Ms. Glaser.
    Ms. Glaser. Thank you, Congressman Forbes. It is a 
privilege to be here today, and I want to thank you for 
especially convening this hearing on a very important set of 
issues.
    I would like to underscore or pick up on what Andrew 
Erickson referred to as influencing China's calculus and 
shaping China's choices. I believe that there are ongoing 
debates in China about how to best proceed on this issue of the 
South China Sea and others. And the Chinese may well conclude 
that there is too high a cost to pay if the United States and 
other countries take actions to impose greater costs.
    And so I think that that is really what is incumbent upon 
us, that we create an environment in the South China Sea using 
our whole-of-government approach--our military, our diplomacy, 
and our economic engagement as well.
    And there I would say that I believe, if we are to maintain 
our credibility in the region, if we are to sustain confidence 
in the rebalance to Asia, that it is extremely important for 
the Trans-Pacific Partnership to be ratified. This is seen by 
every country in the region as a litmus test of whether or not 
the rebalance is going to survive this administration. So I 
think that that should be a very high priority.
    So I would endorse the recommendation, we need to have a 
clear strategy, a report that comes from high levels in the 
administration, and then coordination of the various agencies 
and elements of the U.S. Government in support of the 
implementation of that strategy.
    And particularly in the military realm, we have to send 
clear signals. And we have to sometimes be willing to incur 
risk. I believe that the Chinese respect strength and they will 
take advantage of weakness.
    So I do not see it as inevitable that we will have a 
confrontation with China in the South China Sea if we have the 
correct strategy to avoid such confrontation and potential 
conflict.
    Thank you.
    Mr. Forbes. On behalf of all of our members and our 
subcommittee, we want to thank all of you for taking your time 
to be here.
    And, with that, we are adjourned.
    [Whereupon, at 4:33 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           September 21, 2016


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 21, 2016
         
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 21, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Japan has recently committed to increasing its 
patrols and its training activities with the United States in the South 
China Sea, as well as giving additional military aid to countries such 
as Vietnam. The Philippines, conversely, have made little public 
mention of the July tribunal ruling. How are our other allies in the 
region, specifically Taiwan, reacting to the ruling on the South China 
Sea territorial disputes?
    Ms. Glaser. A total of 7 countries called on the Philippines and 
China to abide by the ruling, which is final and binding on both 
parties. Those seven countries are: the United States, the Philippines, 
Australia, Canada, Japan, New Zealand and Vietnam. Since then, however, 
the Philippines has downplayed the ruling, especially in its 
discussions with China.
    Taiwan's new government under Tsai Ing-wen found the tribunal award 
``completely unacceptable.'' An official statement objected to the 
reference to ``Taiwan Authority of China'' in the text of the award; to 
the finding that Taiping Island is a rock that isn't entitled to an 
exclusive economic zone; and to the fact that the ROC was not invited 
to participate in the proceedings. The statement maintained that ``the 
award has no legally binding force on the Republic of China.''
    It should be noted, however, that Taiwan has only stated that it 
claims the South China Sea Islands. Taipei has not claimed sovereignty 
or jurisdiction over waters in the South China Sea that are not 
associated with land features. Taiwan's official statements do not 
reference the 1947 11-dash line. Speaking to a crew aboard an ROC 
frigate the day following the ruling, President Tsai Ing-wen said that 
Taiwan supports resolving maritime and territorial disputes through 
negotiations in a peaceful manner. Despite rejecting the ruling, Tsai 
often references the importance of abiding by international law and 
UNCLOS in particular in her statements regarding the South China Sea.
    Mr. Langevin. Japan has recently committed to increasing its 
patrols and its training activities with the United States in the South 
China Sea, as well as giving additional military aid to countries such 
as Vietnam. The Philippines, conversely, have made little public 
mention of the July tribunal ruling. How are our other allies in the 
region, specifically Taiwan, reacting to the ruling on the South China 
Sea territorial disputes?
    Dr. Kraska. This response provides reaction by Taiwan and the 
following five U.S. treaty allies to the South China Sea arbitration 
award of July 12, 2016. In short, Japan and Australia were very 
supportive of the arbitration award, and their statements mirrored the 
U.S. position that the award was ``final and binding'' on China and the 
Philippines. Korea was somewhat circumspect, and adopted a neutral tone 
that ``took note'' of the award, while reiterating support for freedom 
of navigation. Thailand was even more ambiguous than Korea, and did not 
even mention the award in an official statement released on the day of 
the arbitration ruling. Taiwan rejected the award based upon its 
finding that Taiwanese-occupied Itu Aba, the largest feature in the 
South China Sea, was determined to not be entitled to a 200 nautical 
mile exclusive economic zone. Taiwan did not mention the arbitration 
award's rejection of the Nine Dash Line, which is the most egregious 
and unlawful claims by China.

Taiwan

    The Republic of China (Taiwan) rejected the ruling the arbitration 
ruling because it held that none of the islands in the South China Sea 
are entitled to a 200 nautical mile exclusive economic zone. The 
arbitration panel ruled that all features in the Spratly Islands are 
either ``rocks'' that cannot sustain human habitation, or low-tide 
elevations. Rocks are entitled to only a 12 nautical mile territorial 
sea. Taiwan occupies and claims Itu Aba, the largest feature in the 
Spratly Islands. Under the ruling, Itu Aba (Taiping) would not be 
entitled to a 200 nautical mile exclusive economic zone. The 0.51-
square-kilometer Taiping is the largest land mass in the Spratly 
Islands, and it lies about 1,600 kilometers southwest of Kaohsiung, 
Taiwan.
Japan

    Japan has repeatedly indicated that China should accept the 
arbitration ruling as ``final and binding.'' On July 26, 2016, for 
example, Japan Foreign Minister Fumio Kishida urged Beijing to comply 
with an international tribunal ruling that denied China's sweeping 
claims in the South China Sea.

South Korea

    The Korean government ``took note'' of the arbitration ruling, and 
thus adopted a neutral position that avoided a strong signal of 
support. The Korean government reiterated its support for freedom of 
navigation and overflight in the South China Sea, and also reiterated 
that all conflicts should be resolved through peaceful means and in 
accordance with ``relevant agreements, non-militarization commitments, 
as well as internationally established norms of conduct.'' The Korean 
government also stated that it ``hopes . . . South China Sea disputes 
will be resolved through peaceful and creative diplomatic efforts.''

Australia

    On July 12, 2016, the Australian Government issued a statement that 
``calls on the Philippines and China to abide by the ruling, which is 
final and binding on both parties.''

Thailand

    On July 12, 2016, the Government of Thailand released a rather 
ambiguous statement that did not either support or condemn the 
arbitration award. The statement indicated ``Thailand attaches great 
importance to maintaining peace and stability in Southeast Asia and 
adjacent areas, as well as restoring trust and confidence among 
countries in the regions, in order to foster an environment conducive 
to sustainable growth and prosperity through cooperation on all 
constructive activities.''
    The situation in the South China Sea should be addressed through 
concerted efforts and by every means, on the basis of mutual trust and 
confidence as well as equitable benefit.
    Mr. Langevin. Japan has recently committed to increasing its 
patrols and its training activities with the United States in the South 
China Sea, as well as giving additional military aid to countries such 
as Vietnam. The Philippines, conversely, have made little public 
mention of the July tribunal ruling. How are our other allies in the 
region, specifically Taiwan, reacting to the ruling on the South China 
Sea territorial disputes?
    Dr. Erickson. The answer to your question is beyond my expertise; 
and therefore I am unable to provide you a response.

                                  [all]
                                  
                                  
                                  
</pre></body></html>
